TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  The 2007 Tax Filing Season Was Generally
                  Successful, and Most Returns Were Timely
                         and Accurately Processed



                                      September 21, 2007

                              Reference Number: 2007-40-187




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                              September 21, 2007


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – The 2007 Tax Filing Season Was Generally
                               Successful, and Most Returns Were Timely and Accurately Processed
                               (Audit #200740027)

 This report presents the results of our review to evaluate whether the Internal Revenue Service
 (IRS) timely and accurately processed individual paper and electronic tax returns1 during the
 2007 Filing Season.2 The audit focused on the implementation of new tax law and administrative
 changes that affected Tax Year 2006 returns.3 In addition, we reviewed the corrective actions
 taken for the conditions identified in our review of the 2006 Filing Season4 to determine whether
 they were adequate.

 Impact on the Taxpayer
 Each year, legislated tax law changes create complexities for both the IRS and individual
 taxpayers. Overall, the IRS implemented these changes correctly with no significant delays in
 the processing of tax returns during the 2007 Filing Season. Through June 1, 2007, the IRS had
 processed approximately 123.7 million individual income tax returns and timely issued
 approximately $223 billion in refunds to more than 99 million taxpayers.




 1
   U.S. Individual Income Tax Returns (Form 1040 and Form 1040A) and Income Tax Returns for Single and Joint
 Filers With No Dependents (Form 1040EZ).
 2
   The filing season is the period from January through mid-April when most individual income tax returns are filed.
 3
   See Appendix V for an overview of the tax law provisions and administrative changes examined during this
 review.
 4
   Individual Tax Returns Were Timely Processed in 2006, but Opportunities Exist to Improve Verification of Certain
 Tax Deductions (Reference Number 2006-40-164, dated October 10, 2006).
                     The 2007 Tax Filing Season Was Generally Successful, and
                       Most Returns Were Timely and Accurately Processed




Synopsis
The 2007 Filing Season was demanding for the IRS. Before the 2007 Filing Season began, the
IRS Commissioner told Congress the IRS was at high risk due to high-profile administrative
changes such as the Telephone Excise Tax Refund and the Split Refund option. Late enactment
of the Tax Relief and Health Care Act of 20065 added additional risk to this Filing Season.
In spite of the additional risks, the IRS generally had a successful 2007 Filing Season. Most key
tax law changes were correctly implemented, and the IRS timely processed returns and issued
refunds within the required 45 calendar days of the April 17, 2007, due date.6 Electronically
filed returns increased almost 9 percent over the same time last year. The largest increase came
from taxpayers filing online from home computers (11 percent).7 However, use of the Free File
Program decreased by 2 percent. Additionally, more than 99 million refunds totaling
approximately $223 billion were issued. Of these refunds, almost 60 million (60 percent) were
directly deposited to taxpayer bank accounts, an increase of 8 percent compared to 2006.
While the IRS timely and accurately processed individual tax returns and refunds, there were
some areas in which taxpayers did not take full advantage of the benefits the tax law and
administrative changes provided or improperly claimed benefits to which they were not entitled.
•   Millions of taxpayers did not claim the Telephone Excise Tax Refund.
•   Taxpayers made only limited use of the Split Refund option.
•   Some taxpayers improperly claimed additional exemptions for housing Hurricane Katrina
    displaced individuals.
•   Taxpayers older than age 70½ continued to claim improper Individual Retirement
    Arrangement (IRA) deductions.
•   Many eligible taxpayers missed the opportunity to claim the sales tax deduction.
•   Taxpayers continued to claim a “dual benefit” for both the tuition and fees deduction and the
    Education Credit.

Recommendations
We recommended the Commissioner, Wage and Investment Division:

5
  Pub. L. No. 109-432, 120 Stat. 2922 (2006).
6
  Internal Revenue Code Section 6611 (e) (2005).
7
  A volume for filing online from home computers includes Free File Program returns and Non-Free File
Web/Home-Prepared returns. The Free File Program is an online tax preparation and electronic filing program
offered through a partnership agreement between the IRS and the Free File Alliance, LLC.
                                                                                                              2
                   The 2007 Tax Filing Season Was Generally Successful, and
                     Most Returns Were Timely and Accurately Processed



•   Revise the IRA worksheet in all tax instructions in which this worksheet is used to clearly
    state that taxpayers over age 70½ cannot take the IRA deduction.
•   Develop a communication strategy to inform taxpayers they are eligible for a sales tax
    deduction, if they itemize and do not claim a State income tax deduction, and clearly outline
    that these taxpayers may be eligible to file amended returns for the past 3 years if they
    itemized deductions and did not claim any State or local income or sales tax deductions for
    any of the past 3 tax years.
•   Ensure the new Tuition and Fees Deduction (Form 8917) is finalized prior to the start of the
    2008 Filing Season and required for all taxpayers claiming the deduction for Tax Year 2007.

Response
IRS management agreed with all of our recommendations. Management will add a statement to
the top of the IRA worksheet instructing taxpayers age 70½ or older that they cannot take the
deduction and will clarify the requirement by revising the wording on the worksheet.
Management will also develop a communication strategy to inform taxpayers they are eligible
for a sales tax deduction if they itemize and do not claim a State tax deduction; specialized
information will be provided advising how taxpayers can claim this tax benefit by filing an
amended return. Form 8917 has been developed for the 2008 Filing Season and should be
available to the public by December 15, 2007. Management’s complete response to the draft
report is included as Appendix VII.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 622-5916.




                                                                                                    3
                          The 2007 Tax Filing Season Was Generally Successful, and
                            Most Returns Were Timely and Accurately Processed




                                              Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The 2007 Filing Season Was Timely Completed, and Most Returns
          Were Accurately Processed ..........................................................................Page 3
          Some Additional Exemptions for Housing Hurricane Katrina
          Displaced Individuals Were Improperly Claimed for 2 Years .....................Page 9
          Taxpayers Continue to Claim Improper Individual Retirement
          Arrangement Deductions ..............................................................................Page 10
                    Recommendation 1: .................................................................. Page 11

          Many Eligible Taxpayers Missed the Opportunity to Claim the
          Sales Tax Deduction .....................................................................................Page 11
                    Recommendation 2: .................................................................. Page 14

          Taxpayers Continue to Claim a “Dual Benefit” for Both the
          Tuition and Fees Deduction and the Education Credit .................................Page 15
                    Recommendation 3:........................................................Page 17


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 18
          Appendix II – Major Contributors to This Report ........................................Page 22
          Appendix III – Report Distribution List .......................................................Page 23
          Appendix IV – Outcome Measures...............................................................Page 24
          Appendix V – Overview of Tax Law Provisions and Administrative
          Changes Examined During the Review ........................................................Page 26
          Appendix VI – Detailed Analysis of the Missed State Sales
          Tax Deductions .............................................................................................Page 30
          Appendix VII – Management’s Response to the Draft Report.....................Page 32
         The 2007 Tax Filing Season Was Generally Successful, and
           Most Returns Were Timely and Accurately Processed




                      Abbreviations

IRA             Individual Retirement Arrangement
I.R.C.          Internal Revenue Code
IRS             Internal Revenue Service
TETR            Telephone Excise Tax Refund
TY              Tax Year
                     The 2007 Tax Filing Season Was Generally Successful, and
                       Most Returns Were Timely and Accurately Processed




                                          Background

The Internal Revenue Service (IRS) expects to receive
more than 136 million Tax Year (TY) 2006 individual          The IRS expects to receive more
                   1         2                                   than 136 million TY 2006
income tax returns in 2007, with the vast majority           individual income tax returns in
being received and processed during the 2007 Filing                        2007.
Season.3 The filing season is a critical time for the IRS
because it is during this time that most individuals file
their income tax returns and contact the IRS if they have questions about specific tax laws or
filing procedures. One of the complexities the IRS encounters in processing these returns is the
correct implementation of tax law and administrative changes.
Before a filing season begins, the IRS must identify new tax law and administrative changes;
revise the affected tax forms, instructions, and publications; and reprogram its computer systems
to ensure tax returns are accurately processed. The 2007 Filing Season presented additional
demands for the IRS. Before the Filing Season began, the IRS Commissioner told Congress the
IRS was operating at maximum capacity to get ready, and the 2007 Filing Season was already
high risk due to high-profile administrative changes such as the Telephone Excise Tax Refund
(TETR) and the Split Refund option. Late enactment of the Tax Relief and Health Care Act of
2006,4 which extended many expiring tax benefits, added risk to this Filing Season.
•   The TETR was a one-time refund designed to return previously collected Federal excise
    taxes on long-distance telephone service. It was available to anyone who paid for
    long-distance services on landline, cell phone, or Voice over Internet Protocol service billed
    after February 28, 2003, and before August 1, 2006. Taxpayers could request this refund
    when they filed their TY 2006 income tax returns.
•   Beginning in 2007, individual taxpayers could elect to have their income tax refunds split
    and electronically deposited into up to three accounts, such as checking, savings, or
    Individual Retirement Arrangement (IRA). In addition, the accounts could be with up to
    three different financial institutions, including banks, brokerage firms, and credit unions.



1
  U.S. Individual Income Tax Returns (Form 1040 and Form 1040A) and Income Tax Returns for Single and Joint
Filers With No Dependents (Form 1040EZ).
2
  All references are to calendar years unless otherwise noted.
3
  The filing season is the period between January 1 and April 15 when most tax returns are filed. However, the
2007 Filing Season was extended to April 17 because April 15 was a Sunday and April 16 was Emancipation Day in
the District of Columbia.
4
  Pub. L. No. 109-432, 120 Stat. 2922 (2006).
                                                                                                      Page 1
                      The 2007 Tax Filing Season Was Generally Successful, and
                        Most Returns Were Timely and Accurately Processed



•   The Tax Relief and Health Care Act of 2006 included extension of the tuition and fees
    deduction, the State and local sales tax deduction, and the deduction for educator expenses.
    This legislation was passed in late December 2006, so the IRS was unable to include these
    deductions on the TY 2006 tax forms and related instructions.
During the 2007 Filing Season, the IRS processed individual income tax returns in six Wage and
Investment Division Submission Processing sites5 located throughout the country. All of the six
sites processed paper individual income tax returns, and all but the Atlanta Submission
Processing Site processed electronic individual income tax returns.
Both paper and electronic tax returns and related schedules are processed through the IRS
computer systems and recorded on each individual’s tax account at the Submission Processing
sites. The IRS computer systems are made up of a complex series of processing subsystems that
are linked and programmed nationally to check the validity and math accuracy of the return data
provided. If an error is found, the taxpayer is sent a notice that asks for additional information or
explains any change that is made to the amount of tax due or to the refund.
This review was performed at the Wage and Investment Division Headquarters in
Atlanta, Georgia; the Submission Processing function offices in Lanham, Maryland, and
Cincinnati, Ohio; and the Austin Submission Processing Site during the period January through
July 2007. The audit was conducted in accordance with Government Auditing Standards.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




5
 Submission Processing sites process paper and electronic submissions, correct errors, and forward data to the
Computing Centers for analysis and posting to taxpayer accounts. They are located in Andover, Massachusetts;
Atlanta, Georgia; Austin, Texas; Fresno, California; Kansas City, Missouri; and Philadelphia, Pennsylvania.
                                                                                                          Page 2
                        The 2007 Tax Filing Season Was Generally Successful, and
                          Most Returns Were Timely and Accurately Processed




                                        Results of Review

The 2007 Filing Season Was Timely Completed, and Most Returns
Were Accurately Processed
The IRS received more than 129.2 million individual income tax returns (about 77.2 million
electronic and about 52 million paper) during the 2007 Filing Season and timely completed
processing returns and issuing refunds within the required 45 calendar days6 of the
April 17, 2007, due date. Because of a computer problem with 1 of the major electronic software
providers, more than 200,000 taxpayers were unable to electronically file their tax returns by the
April 17 due date. The IRS provided an extension until April 19 to allow these taxpayers to
timely file their tax returns.
As shown in Figure 1, there were two significant peaks for electronically filed tax returns–in
early February and around the April 17 due date. Paper returns were received and processed on a
more gradual trend, with the peak reached in mid-April. Because paper tax returns take longer to
process, those received by the April 17 due date may have taken several weeks to process.




6
    Internal Revenue Code Section (§) 6611 (e) (2005).
                                                                                           Page 3
                               The 2007 Tax Filing Season Was Generally Successful, and
                                 Most Returns Were Timely and Accurately Processed



             Figure 1: Volumes of Tax Returns Filed During the 2007 Filing Season

    Returns (Millions)
        16

        15

        14

        13

        12

        11

        10

         9

         8

         7

         6

         5

         4

         3

         2

         1

         0
             Jan   Jan   Jan   Jan   Feb   Feb   Feb   Feb   Mar   Mar   Mar   Mar   Mar    Apr   Apr   Apr   Apr   May   May   May   May
              05    12    19    26    02    09    16    23   02    09    16    23    30     06    13    20    27     04    11    18    25



                                      Paper Filed Returns                                  Electronically Filed Returns


Source: Our analysis of returns processed data.

There continues to be a substantial growth in electronic
filing, and total volumes increased almost 9 percent in
2007. Through June 1, 2007, the IRS had processed                                       The IRS continues to experience
                                                                                         substantial growth in electronic
approximately 123.7 million individual income tax                                      filing, with 62 percent of individual
returns, including 77.2 million (62 percent) processed                                      tax returns being processed
electronically. The largest increase came from taxpayers                                            electronically.
filing online from home computers (11 percent).
However, use of the Free File Program decreased by
2 percent.7
Additionally, more than 99 million refunds totaling approximately $223 billion were issued. Of
these refunds, nearly 60 million (60 percent) were directly deposited to taxpayer bank accounts,
an increase of 8 percent compared to 2006. Figure 2 provides comparative Filing Season
statistics for 2006 and 2007.


7
 The Free File Program is an online tax preparation and electronic filing program offered through a partnership
agreement between the IRS and the Free File Alliance, LLC.
                                                                                                                                 Page 4
                       The 2007 Tax Filing Season Was Generally Successful, and
                         Most Returns Were Timely and Accurately Processed



             Figure 2: Comparative Filing Season Statistics As of June 1, 2007

    Cumulative Filing Season Data:                          2006 Actual         2007 Actual        Change

    Receipts (000s):
    Total Individual Returns Received8                        126,263             129,280           2.39%
    Paper Returns Received                                     55,283              52,070           -5.81%
    Electronic Returns Received                                70,981              77,210           8.78%
    Filed Through Tax Practitioner                             50,926              55,119           8.23%
    Filed From Home Computer (includes Free File)              19,964              22,191           11.16%
    Taxpayers Using Free File                                  3,872                3,810           -1.60%
    Refunds:
    Total Number (000s)                                        95,113              99,204           4.30%
    Total Dollars (in millions)                              $208,766             $223,195          6.91%
    Average Refund Amount                                      $2,195              $2,250           2.50%
    Total Number Directly Deposited (000s)                     55,463              59,950           8.09%

Source: IRS 2007 Filing Season Weekly Reports. Totals may not compute to those presented due to rounding.

Overall, the IRS correctly implemented the key tax law and administrative changes for the
2007 Filing Season. In addition to the provisions related to the TETR, Split Refund, and tax
credit and deduction extensions in the Tax Relief and Health Care Act of 2006, the IRS properly
applied these additional tax law changes:
•     New tax incentives for individual taxpayers to conserve and use alternative energy resources.
•     Modifications to the exclusions for foreign earned income and foreign housing costs for
      citizens living abroad.
•     The expansion of the IRA deduction.
•     Increases in the Earned Income Tax Credit, the standard deduction, and the exemption
      amounts.
While the IRS was able to overcome the high risks and timely and accurately process most tax
returns, there were some areas in which taxpayers did not take full advantage of the benefits the
tax law and administrative changes provided.


8
 These volumes do not include approximately 704,000 Requests for Refund of Federal Telephone Excise Tax
(Form 1040EZ-T).
                                                                                                       Page 5
                       The 2007 Tax Filing Season Was Generally Successful, and
                         Most Returns Were Timely and Accurately Processed



Millions of taxpayers did not claim the TETR
Individual taxpayers could take a standard TETR amount ranging from $30 to $60 based on the
number of exemptions claimed on their tax returns. Individuals choosing a standard amount
could simply fill in the amount on the various individual income tax returns.9 People who were
not required to file an income tax return could use the Request for Refund of Federal Telephone
Excise Tax (Form 1040EZ-T) to choose a standard amount. Individuals who decided not to use
a standard amount had to compute their refunds using the actual amounts of taxes they had paid.
To choose this option, taxpayers filled out the Credit for Federal Telephone Excise Tax Paid
(Form 8913) and attached it to their regular income tax returns.
The IRS estimated between 145 million and 165 million individuals would be eligible to receive
this refund, including 22 million “new” filers that had no other tax obligations but would be
eligible to make a claim using Form 1040EZ-T. It estimated 49 percent of the 22 million new
Forms 1040EZ-T would be filed electronically and 51 percent would be filed on paper. The IRS
expected the total amount of the refunds to be about $8 billion.
Through the week ending June 9, 2007, only 87.6 million individual taxpayers had claimed the
TETR for a total of $3.8 billion. Of these taxpayers, more than 99.5 percent claimed a safe
harbor (standard) amount between $30 and $60. However, the IRS identified more than
35 million individual taxpayers who did not claim the TETR on their tax returns. Figure 3 shows
TETR statistics as of June 9, 2007.
                      Figure 3: TETR Statistics for Individual Taxpayers

       Number of Forms 1040EZ-T Filed                                               675,796
       Number of Tax Returns Claiming the TETR                                   87,600,000
       Percentage of Tax Returns Claiming the TETR                                    71.5%
       Percentage of Tax Returns Claiming the
                                                                                      99.5%
       Standard TETR Amount
       Amount of TETR Claimed                                               $3,800,000,000
       Number of Tax Returns Not Claiming the TETR                               35,000,000
      Source: IRS TETR Performance Measures Reports.




9
    Form 1040, Form 1040A, Form 1040EZ, or U.S. Nonresident Alien Income Tax Return (Form 1040NR).
                                                                                                     Page 6
                       The 2007 Tax Filing Season Was Generally Successful, and
                         Most Returns Were Timely and Accurately Processed



The number of claims received for the one-time TETR was lower than expected, especially
the number expected from taxpayers who were not otherwise required to file tax returns. Based
on this trend, the IRS revised its projection of
Form 1040EZ-T receipts to approximately 637,000                   The IRS expected to receive
through May 4, 2007.10 By June 9, 2007, the IRS had               22 million Forms 1040EZ-T;
received only 675,796 Forms 1040EZ-T, which is                   however, it had received only
substantially fewer than the 22 million it had originally        675,796 by June 9, 2007. We
                                                                     identified an additional
expected to receive by that time. However, we                      549,553 returns filed using
identified an additional 549,553 returns filed using the         various Forms 1040 that only
various U.S. Individual Income Tax Returns (Form 1040                  claimed the TETR.
series) on which the refunded amount was equal to the
TETR amount and the taxpayers did not meet the criteria
that required a return to be filed in accordance with the Form 1040 instructions.11
Some of the TETR claims were identified as obviously incorrect or potentially abusive. For
many of these excessive claims, the taxpayers’ long-distance telephone bills would have to have
amounted to more than 25 percent of the taxpayers’ total annual incomes to justify the TETR
claims. The IRS responded to this potential abuse by creating new compliance selection criteria
for the TETR cases and establishing a weekly review of incoming cases. The TETR issues and
the IRS’ corrective actions are covered in more detail in another of our audit reports.12

Taxpayers made only limited use of the Split Refund option
Beginning in 2007, individual taxpayers could elect to have their Federal income tax refunds
split and electronically deposited into up to three accounts, such as checking, savings, or IRA.
This change gives taxpayers more options for managing their refunds along with the speed and
safety of direct deposit. The IRS estimated taxpayers would choose to split their refunds on
approximately 3.8 million returns this year.
Taxpayers can continue to use the direct deposit line on Form 1040 to electronically send their
refunds to one checking or savings account or use the new Direct Deposit of Refund to More
Than One Account (Form 8888) to split their refunds among two or three different
accounts/financial institutions. The IRS will electronically deposit refunds to the accounts

10
   The “Lower” projection showed the IRS receiving only 315,208 Forms 1040EZ-T; the “Most Likely” projection
showed 637,030; the “Optimistic” projection showed 7,347,546.
11
   Our computer analysis identified 549,553 additional returns (other than Form 1040EZ-T) that were filed through
June 9, 2007, and met the following criteria: (1) the tax refund was equal to the TETR amount based on income
and/or filing status, and (2) if not for the TETR refund, the taxpayer would not have been required to file a return.
In a separate internal computer analysis, the IRS identified 2.4 million returns (other than Form 1040EZ-T) that
were filed through August 16, 2007, and met the following criteria: there was a tax refund equal to the TETR
amount, a zero tax liability, and a zero amount of other tax due.
12
   Although Strong Efforts Were Made, a Significant Amount of the Telephone Excise Tax Overcollected From
Individual Taxpayers May Never Be Refunded. (Audit # 200630036, draft report issued August 8, 2007).
                                                                                                              Page 7
                   The 2007 Tax Filing Season Was Generally Successful, and
                     Most Returns Were Timely and Accurately Processed



designated by the taxpayer if the taxpayer supplies accurate account and routing numbers and the
financial institutions accept direct deposits for the types of accounts designated.
The IRS decided to offer this option to taxpayers for many reasons. First, several Congressional
representatives and Earned Income Tax Credit partners asked the IRS to offer more direct
deposit options that allowed taxpayers to turn their refunds into assets. A study conducted by
researchers at the Harvard Business School and the University of Kansas supported this–one in
three taxpayers opted to direct part of their refunds to savings. Second, the technology was in
place to implement this program and the electronic options continue to grow. Finally, this was
another opportunity to reduce taxpayers’ burden by making it easier for them to make financial
decisions and direct where their refunds are deposited when they file.
While the majority of taxpayers are choosing to have their refunds directly deposited to their
checking or savings accounts (60 percent of refunds issued
through June 1, 2007, were direct deposits), the number of
                                                                   Taxpayers are not taking
taxpayers choosing to split their refunds among 2 or             advantage of the split refund
3 different accounts was much lower than anticipated.              option. Only one-tenth of
Only 80,673 Forms 8888 used to split refunds had been           1 percent of all direct deposits
received as of June 4, 2007, representing only one-tenth                have been split.
of 1 percent of the direct deposits. The split refunds
totaled $284.2 million, an average of $3,523 per refund.
The minimal use of the split refund option may not be solely due to lack of interest. According
to the IRS, two of the largest providers of tax preparation software did not offer the split refund
option in their software. Millions of taxpayers use this software. One of the software companies
stated the change came too late to program this option; however, there was significant advance
notice–the IRS announced this program in May 2006. The other software company decided not
to offer the option after determining there was not much customer demand.

Late passage of the extension of certain tax deductions caused a delay in
processing some tax returns
The Tax Relief and Health Care Act of 2006 extended the college tuition and fees deduction, the
State and local sales tax deduction, and the deduction for educator expenses. This legislation
was passed in late December 2006, so the IRS was unable to include these deductions on the
2006 Form 1040 and related instructions. Cautions notifying taxpayers of pending legislation
were included in the appropriate tax products.
The IRS did not begin processing tax returns claiming the educator expense, tuition and fees, and
State sales tax deductions until February 3, 2007, to ensure the computer programming updates
were working as intended. It stated this delay would not affect the vast majority of taxpayers
because only about 930,000 of the tax returns filed by February 1, 2007, had a claim for any of
these 3 deductions. Through June 1, 2007, we had identified more than 10.5 million of these
deductions on taxpayers’ returns.
                                                                                            Page 8
                      The 2007 Tax Filing Season Was Generally Successful, and
                        Most Returns Were Timely and Accurately Processed



While the IRS had a successful Filing Season overall, we did identify opportunities to improve
the processing and accuracy of tax returns containing the following tax provisions:
•    Taxpayers improperly claimed additional exemptions for housing Hurricane Katrina
     displaced individuals.
•    Taxpayers older than age 70½ continued to claim improper IRA deductions.
•    Many eligible taxpayers missed the opportunity to claim the sales tax deduction.
•    Taxpayers continued to claim a “dual benefit” of both the tuition and fees deduction and the
     Education Credit.

Some Additional Exemptions for Housing Hurricane Katrina Displaced
Individuals Were Improperly Claimed for 2 Years
The Katrina Emergency Tax Relief Act of 200513 was signed into law on September 23, 2005,
and contained $2.6 billion in estimated tax relief for Fiscal Year 2007. Included in this
legislation was a provision to assist taxpayers who provided housing for Hurricane Katrina
displaced individuals. Taxpayers could claim an additional exemption of $500 for each
Hurricane Katrina displaced individual for whom they provided housing. The exemption was
limited to up to 4 displaced individuals for a maximum benefit of $2,000, could be claimed only
1 time for each individual, and applied to either TY 2005 or TY 2006. Taxpayers use the
Exemption Amount for Taxpayers Housing Individuals Displaced by Hurricane Katrina
(Form 8914) for claiming the additional exemptions.
Our analysis identified some taxpayers who claimed the same displaced individual for both
TYs 2005 and 2006. As of June 1, 2007, we had identified 4,062 taxpayers who claimed
6,097 dependents as an additional exemption for TY 2006. These taxpayers also had claimed the
same 6,097 dependents in TY 2005, for a total of approximately $3 million in improper
exemptions. Assuming all taxpayers received an improper tax benefit from only the additional
exemptions, the estimated loss of tax revenue is $457,275.14
The 2006 instructions for Form 8914 clearly state that displaced individuals included on this
Form for TY 2005 should not be entered on the Form for TY 2006. They also instruct taxpayers
to claim an exemption amount only one time for a specific individual. The IRS did not program
its computer systems to identify these improper exemptions. Because this was the last year
taxpayers could claim this additional exemption and due to the relatively small number of
affected tax returns, we are making no related recommendation.


13
  Pub. L. No. 109-73, 119 Stat. 2016 (to be codified in scattered sections of 26 U.S.C.).
14
  We used the tax rate of 15 percent to compute the estimated tax benefit (i.e., 15 percent times $3,048,500 in
exemptions equals a tax benefit of $457,275).
                                                                                                             Page 9
                      The 2007 Tax Filing Season Was Generally Successful, and
                        Most Returns Were Timely and Accurately Processed



Taxpayers Continue to Claim Improper Individual Retirement
Arrangement Deductions
The IRA deduction was increased for TY 2006 to $5,000 if a taxpayer is age 50 or older at the
end of 2006. However, the Internal Revenue Code (I.R.C.)15 states that no deduction will be
allowed as a benefit to any individual who is age 70½ before the end of the taxable year for
which the contribution is made.
During the 2006 Filing Season, we reported that 1,826 taxpayers over age 70½ improperly
claimed more than $4 million in IRA deductions for an estimated loss of revenue of $601,423.16
The TY 2005 instructions for Forms 1040 and 1040A informed taxpayers to use the worksheet in
the instructions to calculate the amount of their IRA deductions but to read a list that followed
before preparing the worksheet. This list included the information that, if a taxpayer was
age 70½ or older at the end of 2005, he or she could not deduct any contributions made to a
traditional IRA for 2005. However, the IRA worksheet instructed taxpayers to enter $4,000 or
$4,500 if age 50 or older at the end of 2005. This wording was used three different times in the
worksheet and implied there was no age limit for this deduction. A taxpayer who had not read
the instructions prior to preparing the worksheet could assume the deduction was proper.
We previously recommended the IRA worksheet be revised in all the tax instructions where this
worksheet was used to clearly state that taxpayers over age 70½ could not take the IRA
deduction. The IRS did not agree with our recommendation; however, it did revise the
worksheet for TY 2006 to emphasize the importance of reading the list in the instructions by
including this at the top of the worksheet.
We were concerned taxpayers would continue to improperly claim this deduction; as of
June 1, 2007, we had identified 1,693 taxpayers over age 70½ that had improperly claimed more
than $3.5 million in IRA deductions.17 Assuming all taxpayers received an improper tax benefit
from only the IRA deduction, the estimated loss is $530,099.18 The change to the instructions
last year may have helped to decrease the number of taxpayers who improperly claimed this
deduction; however, we still believe the worksheet should be revised to ensure there is no
misunderstanding.




15
   26 U.S.C. § 219 (2004).
16
   We used the tax rate of 15 percent to compute the estimated tax benefit (i.e., 15 percent times $4,009,485 of IRA
deductions equals a tax benefit of $601,423).
17
   These exceptions did take into account the age of the spouse if the taxpayers filed as married filing jointly.
18
   We used the tax rate of 15 percent to compute the estimated tax benefit (i.e., 15 percent times $3,533,993 of IRA
deductions equals a tax benefit of $530,099).
                                                                                                            Page 10
                     The 2007 Tax Filing Season Was Generally Successful, and
                       Most Returns Were Timely and Accurately Processed



Recommendation
Recommendation 1: The Commissioner, Wage and Investment Division, should revise the
IRA worksheet in all tax instructions where this worksheet is used to clearly state that taxpayers
over age 70½ cannot take the IRA deduction.
        Management’s Response: IRS management agreed with this recommendation.
        Management will add a statement to the top of the IRA worksheet instructing taxpayers
        age 70½ or older that they cannot take the deduction and will clarify the requirement by
        revising the wording on lines 1b and 6 of the worksheet.

Many Eligible Taxpayers Missed the Opportunity to Claim the Sales
Tax Deduction
The American Jobs Creation Act of 200419 was enacted in October 2004 and allowed taxpayers
who itemize deductions the option of deducting either State and local sales taxes or State and
local income taxes from their Federal income taxes. This legislation allowed the deduction in
TYs 2004 and 2005 and was most advantageous for taxpayers living in the seven States that do
not have a State income tax.20 The deduction was extended beyond TY 2005 in the late passage
of the Tax Relief and Health Care Act of 2006.
Despite the fact that any taxpayer in any State who itemizes deductions and did not claim an
income tax deduction is eligible for a sales tax deduction, many eligible taxpayers continue to
miss the opportunity to claim this deduction.

Missed opportunities for claiming the sales tax deduction have increased each
year the deduction has been available
We reported for both the 2005 and 2006 Filing Seasons that a significant and increasing number
of eligible taxpayers missed the opportunity to claim the sales tax deduction.21 This year, the
number continued to rise, with almost 2.1 million eligible taxpayers failing to claim the sales tax
deduction.
Although the sales tax deduction is most advantageous to taxpayers living in the seven States
with no State income tax (because they paid no State income tax and therefore would otherwise



19
   Pub. L. No. 108-357, 118 Stat. 1418 (2004).
20
   Alaska, Florida, Nevada, South Dakota, Texas, Washington, and Wyoming.
21
   Individual Income Tax Returns Were Timely Processed in 2005; However, Implementation of Tax Law Changes
Could Be Improved (Reference Number 2006-40-024, dated December 2005) and Individual Tax Returns Were
Timely Processed in 2006, but Opportunities Exist to Improve Verification of Certain Tax Deductions (Reference
Number 2006-40-164, dated October 10, 2006).
                                                                                                       Page 11
                            The 2007 Tax Filing Season Was Generally Successful, and
                              Most Returns Were Timely and Accurately Processed



be unable to take any deduction for taxes paid), any taxpayer who itemizes deductions and does
not claim a State income tax deduction is eligible to take the sales tax deduction.
Figure 4 illustrates the steady rise from TY 2004 to TY 2006 in the number of taxpayers missing
the opportunity for this deduction. In TY 2006, 2.1 million eligible taxpayers missed the
opportunity to claim the sales tax deduction. This was a 50 percent increase over TY 2005, for
which 1.4 million taxpayers missed the opportunity, and more than a 90 percent increase over
TY 2004, for which 1.1 million taxpayers missed claiming the deduction. Combined, 4.6 million
taxpayers22 who were eligible to claim the sales tax deduction have not claimed it thus far.
Figure 4: Number of Eligible Taxpayers That Missed the Opportunity to Claim the
                    Sales Tax Deduction for TYs 2004-2006


                                 2.5

                                  2                                              2.1 M
                 (in millions)
                  Taxpayers




                                 1.5
                                                            1.4 M
                                  1       1.1 M

                                 0.5

                                  0
                                        TY 2004         TY 2005               TY 2006

                                       4.6 Million Eligible Taxpayers (combined)

           Source: Our electronic analysis of returns processed with the State and local sales tax
           deduction for TYs 2004, 2005, and 2006.

The average amount of the sales tax deduction claimed on the tax returns on which we were able
to identify the sales tax deduction being claimed23 was $1,718 for TY 2006. By applying that
average to the 2.1 million eligible taxpayers who missed taking the deduction, we determined
they are entitled to potentially $3.6 billion in missed deductions. Using a conservative estimate
of a 15 percent tax rate, these taxpayers are entitled to potentially $534 million24 in tax refunds.



22
   Taxpayers who missed the opportunity to claim the sales tax deduction may have not claimed the deduction in
more than 1 year.
23
   For States with a State income tax, we cannot positively differentiate between the State income tax deduction and
sales tax deduction in TY 2006. For consistency, the average for all 3 years was obtained using the results of sales
tax deduction claims made in the 7 States that have no State income tax.
24
   The $534 million in tax refunds is rounded. Appendix VI contains the unrounded amounts.
                                                                                                           Page 12
                                     The 2007 Tax Filing Season Was Generally Successful, and
                                       Most Returns Were Timely and Accurately Processed



Figure 5 shows the estimated refunds owed for each year to eligible taxpayers that missed the
opportunity to claim the sales tax deduction.
      Figure 5: Estimated Tax Refund Dollars Available to Eligible Taxpayers
          Who Failed to Claim the Sales Tax Deduction for TYs 2004-2006


                                    $700
                                              $677M
                                    $600
            Dollars (in millions)




                                    $500                                      $534M
                                    $400                      $450M
                                    $300
                                    $200
                                    $100
                                      $0
                                            TY 2004        TY 2005         TY 2006

                                       $1.66 Billion Estimated Missed Refunds (combined)

        Source: Our electronic analysis of returns processed with the State and local sales tax
        deduction for TYs 2004, 2005, and 2006.

Fortunately for these taxpayers, it is not too late to get the benefits of the deductions for which
they are eligible. These taxpayers have the right to file amended tax returns and claim the
missed deduction. Given that 4.6 million taxpayers may be entitled to as much as $1.66 billion
in tax refunds, we believe the IRS should notify these taxpayers that they appear eligible for this
deduction and may want to file amended tax returns.

Late legislative changes may have added to taxpayer burden and resulted in
eligible taxpayers failing to claim the deduction
The original legislation that created the sales tax deduction allowed the deduction for only
TYs 2004 and 2005, so the sales tax deduction was set to expire for TY 2006. Subsequent
legislation extended this deduction through TY 2007. Because this legislation was not passed
until late December 2006, the IRS had already removed guidance on how to take the sales tax
deduction from the overall instructions for Form 1040 Itemized Deductions (Schedule A). In
addition, the IRS had removed the checkboxes on line 5 separating State and local income taxes
from sales taxes. Line 5 was now simply “State and local income taxes.” The timing of this
legislation did not allow the IRS to change tax forms or instructions.




                                                                                                  Page 13
                     The 2007 Tax Filing Season Was Generally Successful, and
                       Most Returns Were Timely and Accurately Processed



                                                    However, the IRS took action to inform
                                                    taxpayers that Congress was considering
                                                    extending the legislation. Specifically, the
                                                    2006 Instructions for Schedule A and Interest
                                                    and Dividend Income (Schedule B) contained an
                                                    alert (pictured left) that explained to taxpayers
                                                    the sales tax deduction could no longer be
                                                    claimed but Congress was considering
                                                    extending it. The alert instructed taxpayers to
                                                    use the IRS web site (IRS.gov) to determine the
                                                    status of this late legislation. Some taxpayers
                                                    may not have been inclined to interrupt the
                                                    completion of their income tax returns with a
                                                    check of IRS.gov to evaluate whether this
                                                    additional benefit applied to them.
 Source: 2006 Instructions for Schedules A and B.
                                                The IRS also sent State and Local General Sales
                                                Taxes (Publication 600) to all taxpayers who
received the Form 1040 tax package via mail. However, this Publication was mailed separately
and arrived several weeks after the Form 1040 for most taxpayers. This year the IRS also
provided the Sales Tax Calculator on IRS.gov to assist taxpayers in calculating their deductions.
We believe the substantial increase in taxpayers not claiming the sales tax deduction this year
directly relates to the elimination of the separate checkbox and guidance for the sales tax
deduction on Form 1040 Schedule A and its related instructions when this deduction was not
timely extended. The difficulty of reviewing the various alerts and updates, along with the
removal of the separate line (checkbox) for the sales tax deduction, may have caused additional
taxpayer burden that resulted in numerous taxpayers failing to claim the deduction at all this
year. In previous years, we also reported that various factors may have increased taxpayer
burden and made it more difficult for taxpayers to claim the deduction.

Recommendation
Recommendation 2: The Commissioner, Wage and Investment Division, should develop a
communication strategy to inform taxpayers they are eligible for a sales tax deduction if they
itemize and do not claim a State income tax deduction. This strategy could be directed to
segments of taxpayers who are not taking advantage of the sales tax deduction or could be
broader in nature. Regardless of approach, the strategy should also clearly outline that these
taxpayers may be eligible to file amended returns for the past 3 years if they itemized deductions
and did not claim any State or local income or sales tax deductions for any of the past 3 tax
years.


                                                                                             Page 14
                      The 2007 Tax Filing Season Was Generally Successful, and
                        Most Returns Were Timely and Accurately Processed



        Management’s Response: IRS management agreed with this recommendation.
        Management will develop a communication strategy to inform taxpayers they are eligible
        for a sales tax deduction if they itemize and do not claim a State tax deduction. As part
        of the IRS filing season communication, management will emphasize the availability of
        the State and local sales tax deduction and point out the new law extended this deduction
        through 2007. Form 1040 Schedule A will clearly show the availability of the State and
        local income tax deduction. Specialized information will be provided to media
        spokespersons; Stakeholder Partnerships, Education, and Communication function
        partners; and FedState/Governmental Liaisons advising how taxpayers can claim this tax
        benefit by filing an Amended U.S. Individual Income Tax Return (Form 1040X).
        Localized news releases with similar content will be issued in the seven States with no
        State income tax.

Taxpayers Continue to Claim a “Dual Benefit” for Both the Tuition and
Fees Deduction and the Education Credit
The Economic Growth and Tax Relief Reconciliation Act of 200125 created a new
“above-the-line” deduction for tuition and fees that would be available to taxpayers beginning in
TY 2003 and expiring at the end of TY 2005.26 However, this was another provision extended
beyond TY 2005 in the Tax Relief and Health Care Act of 2006. For TY 2006, taxpayers were
allowed to take a deduction of up to $4,000 for qualified tuition and fees paid for the taxpayer,
his or her spouse, or his or her dependent(s). Taxpayers who claim an Education Credit are
required to complete Education Credits (Hope and Lifetime Learning Credits) (Form 8863) and
identify by name and Social Security Number the student for whom the Education Credit is
being claimed. Taxpayers who claim the tuition and fees deduction are not required to provide
additional information other than what is already on the return to identify the student for whom
the deduction is being claimed. However, taxpayers may not receive a dual benefit by taking
both the tuition and fees deduction and the Education Credit for the same student in the same
year. If the Education Credit is elected, the tuition and fees deduction is not allowed.
During the 2007 Filing Season, we identified 8,493 single taxpayers claiming no dependents that
had claimed both the Education Credit and the tuition and fees deduction through May 25, 2007.
We focused on single taxpayers claiming no dependents because it is clear that both the tuition
and fees deduction and the Education Credit were claimed for the same individual, which is not
allowable. Our audit analysis showed these taxpayers claimed Education Credits of more than
$7 million and tuition and fees deductions of more than $19.8 million. Assuming all



25
  Pub. L. No. 107-16, 115 Stat. 38 (2001).
26
  An “above-the-line” deduction refers to a deduction that is taken directly on Form 1040 rather than on the
Schedule A. Consequently, this type of deduction can be taken by taxpayers who do not itemize their deductions.
                                                                                                        Page 15
                      The 2007 Tax Filing Season Was Generally Successful, and
                        Most Returns Were Timely and Accurately Processed



8,493 taxpayers received an erroneous tax benefit from only the tuition and fees deduction,
the estimated loss of tax revenue is more than $2.97 million.27
This is the fifth year in which we have identified and reported this issue. When this issue was
first identified during the 2003 Filing Season, the IRS included a cautionary statement on the
Form 8863 specifically to alert taxpayers not to claim both the tuition and fees deduction and the
Education Credit for the same student in the same year. Figure 6 provides a comparison of our
results for this issue from the last five filing seasons.
           Figure 6: Single Taxpayers With No Dependents Claiming Both the
                  Education Credit and the Tuition and Fees Deduction

                        Tuition and Fees          Education Credit            Single                 Average
                       Deduction Claimed              Claimed             Taxpayers With            Deduction
     Filing Season          (millions)               (millions)           No Dependents               Taken
         2003                    77                        24                   42,058                $1,831
         2004                    30                        11                   16,979                $1,767
         2005                    39                        13                   18,776                $2,077
         2006                    34                        11                   15,250                $2,230
         2007                    20                        7                    8,493                 $2,355
Source: Our electronic analysis of returns processed data for the 2003-2007 Filing Seasons.

We believe the decrease in the volumes this year directly relates to the elimination of the line for
the tuition and fees deduction on Forms 1040 and 1040A when this deduction was not timely
extended. After the late passage of legislation to extend this deduction, the IRS did not have
time to add this line back to the Forms and provided taxpayers instructions on how to claim the
deduction. Taxpayers were required to write in a “T” on a certain line on the Forms to claim the
deduction. Additionally, the write-in information was, in some cases, not available to taxpayers.
The IRS issued three News Releases28 and included updated information in the TY 2006 Tax
Benefits for Education (Publication 970), in Highlights of 2006 Tax Changes (Publication 553),
and on IRS.gov. However, Publication 553 was not available until March 2007, and the
information on IRS.gov was not always easy to find. Additionally, the widely used TY 2006
Forms 1040 and 1040A instructions, and Your Federal Income Tax For Individuals
(Publication 17), did not include the updated information. Taxpayers reading these Publications
were directed to visit “What’s Hot in forms and publications” on IRS.gov for more information.


27
   We used the tax rate of 15 percent to compute the estimated revenue loss (i.e., 15 percent times $19,820,813 of
tuition and fees deductions equals $2,973,121).
28
   IR-2007-195 (12/22/06), IR-2007-03 (1/8/07), and IR-2007-26 (2/6/07).
                                                                                                            Page 16
                   The 2007 Tax Filing Season Was Generally Successful, and
                     Most Returns Were Timely and Accurately Processed



However, once there, the taxpayer still had to search farther before finding the updated
information.
The extent of the dual benefit problem may not be limited to single taxpayers with no
dependents. A total of 210,082 taxpayers that filed as other than single had claimed both the
tuition and fees deduction and the Education Credit in the 2007 Filing Season through
May 25, 2007. These taxpayers claimed $559.7 million in tuition and fees deductions and
$229.3 million in Education Credits. However, because taxpayers claiming the tuition and fees
deduction are not required to provide additional information other than what is already on the
return to identify the student for whom the deduction is being claimed, neither we nor the IRS
can readily determine whether the taxpayers are claiming a “dual benefit” for the same student.
Management Action: As a result of our prior recommendations, the IRS has developed a new
form for the Tuition and Fees Deduction (Form 8917), a draft version of which was made
available in April 2007. The Form 8917 will require taxpayers to specifically identify by name
and Social Security Number the student for whom the deduction is claimed and is similar to the
Form 8863 now in use by taxpayers to claim certain education credits.

Recommendation
Recommendation 3: The Commissioner, Wage and Investment Division, should ensure
Form 8917 is timely finalized prior to the start of the 2008 Filing Season and is required for all
taxpayers claiming the deduction for TY 2007.
       Management’s Response: IRS management agreed with this recommendation.
       Form 8917 has been developed for the 2008 Filing Season. Its release is on schedule, and
       the Form should be available to the public by December 15, 2007.




                                                                                            Page 17
                      The 2007 Tax Filing Season Was Generally Successful, and
                        Most Returns Were Timely and Accurately Processed



                                                                                                Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of the review was to evaluate whether the IRS timely and accurately
processed individual paper and electronic tax returns1 during the 2007 Filing Season.2 The audit
focused on the implementation of new tax law changes and administrative changes3 that affected
TY 2006 tax returns. In addition, we reviewed the corrective actions for the conditions identified
in our review of the 2006 Filing Season4 to determine whether they were adequate. To
accomplish our objective, we:
I.      Determined whether the IRS correctly implemented new tax legislation that affected the
        processing of individual tax returns during the 2007 Filing Season.
        A. Used 100 percent computer analysis of TY 2006 individual income tax returns
           processed nationally on the Individual Return Transaction File5 between January 1
           and June 1, 2007,6 to identify returns affected by recent tax legislation and
           administrative changes. We used random sampling for some tests to ensure each
           return had an equal chance of being selected. We also used judgmental sampling if
           we needed to ensure the original returns could be quickly obtained to evaluate the
           accuracy of processing. To determine whether changes to tax products were correctly
           initiated and systemic controls at the Submission Processing sites7 assured accurate
           processing of individual tax returns, we:
             1. Verified whether IRS publications, instructions, and applicable forms were
                accurately updated for the new Residential Energy Credits (Form 5695) and

1
  U.S. Individual Income Tax Returns (Form 1040 and Form 1040A) and Income Tax Returns for Single and Joint
Filers With No Dependents (Form 1040EZ).
2
  The period from January through mid-April when most individual income tax returns are filed.
3
  See Appendix V for an overview of the tax law provisions and administrative changes examined during this
review.
4
  Individual Tax Returns Were Timely Processed in 2006, but Opportunities Exist to Improve Verification of Certain
Tax Deductions (Reference Number 2006-40-164, dated October 10, 2006).
5
  The Individual Return Transaction File contains data from the Individual Master File. The Individual Master File
is the IRS database that maintains transactions or records of individual tax accounts.
6
  To assess the reliability of computer-processed data, programmers in the Treasury Inspector General for Tax
Administration Office of Information Technology validated the extracted data, and we verified the appropriate
documentation. Judgmental samples were selected and reviewed to ensure the amounts presented were supported by
external sources. As appropriate, data in the selected data records were compared to the physical tax returns to
verify the amounts were supported.
7
  Submission Processing sites process paper and electronic submissions, correct errors, and forward data to the
Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                        Page 18
                      The 2007 Tax Filing Season Was Generally Successful, and
                        Most Returns Were Timely and Accurately Processed



                  reviewed a random sample of 35 of the 2,585,246 returns processed with these
                  credits through April 13, 2007, for processing accuracy.
             2. Verified whether IRS publications, instructions, and applicable forms were
                accurately updated for the changes to the exclusions for foreign earned income
                and foreign housing costs and reviewed a random sample of 30 of the
                2,476 returns processed with a Foreign Earned Income Exclusion
                (Form 2555-EZ) through February 16, 2007, for processing accuracy.
             3. Monitored the volumes of returns claiming a TETR through June 9, 2007,8 and
                identified an additional 549,553 returns files using various Form 1040 series
                returns other than a Request for Refund of Federal Telephone Excise Tax
                (Form 1040EZ-T) filed only to claim the TETR.9
             4. Verified whether IRS publications, instructions, and applicable forms were
                accurately updated for the expansion of the IRA deduction.
             5. Verified whether IRS publications, instructions, and applicable forms were
                accurately updated for changes to the Earned Income Tax Credit and reviewed a
                random sample of 30 of the 32,816 returns processed from January 19 through
                June 1, 2007, on which a taxpayer claimed an amount that exceeded the
                maximum credit based on filing status, number of qualifying children, and
                adjusted gross income10 limits, to verify whether the returns were accurately
                processed.
             6. Confirmed whether the correct standard deduction and exemption amounts were
                used by reviewing a judgmental sample of 35 returns filed early and processed at
                the Austin, Texas, Submission Processing site.11
         B. Determined whether changes to tax products were correctly initiated and systemic
            controls at the Submission Processing sites assured accurate processing of additional
            issues.

8
  We monitored volumes through June 9, 2007, to be consistent with the draft audit report entitled, Although Strong
Efforts Were Made, a Significant Amount of the Telephone Excise Tax Overcollected From Individual Taxpayers
May Never Be Refunded (Audit # 200630036, draft report issued August 8, 2007).
9
  Our computer analysis identified 549,553 additional returns (other than Form 1040EZ-T) that were filed through
June 9, 2007, and met the following criteria: (1) the tax refund was equal to the TETR amount based on income
and/or filing status, and (2) if not for the TETR refund, the taxpayer would not have been required to file a return.
In a separate internal computer analysis, the IRS identified 2.4 million returns (other than Form 1040EZ-T) that
were filed through August 16, 2007, and met the following criteria: there was a tax refund equal to the TETR
amount, a zero tax liability, and a zero amount of other tax due.
10
   Adjusted gross income is calculated after certain adjustments are made but before standard or itemized deductions
and personal exemptions are subtracted.
11
   Submission Processing sites process paper and electronic submissions, correct errors, and forward data to the
Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                            Page 19
                  The 2007 Tax Filing Season Was Generally Successful, and
                    Most Returns Were Timely and Accurately Processed



          1. Verified whether IRS publications, instructions, and applicable forms were
             accurately updated for the new Direct Deposit of Refund to More Than One
             Account (Form 8888) and identified 80,673 Forms 8888 filed through
             June 4, 2007. We also reviewed the volume of error codes for Forms 8888 to
             evaluate the accuracy of the processing.
          2. Identified a population of 4,062 taxpayer returns processed with an Exemption
             Amount for Taxpayers Housing Individuals Displaced by Hurricane Katrina
             (Form 8914) through June 1, 2007, who claimed 6,097 displaced individuals for
             an additional exemption in both TYs 2005 and 2006.
       C. Determined the numbers of taxpayers affected by the new tax legislation and the
          additional issues identified above by counting the number of returns and dollar
          amounts of the applicable deductions or credits claimed by taxpayers.
II.    Determined whether the IRS monitoring systems indicate that individual returns are
       being processed timely and accurately.
       A. Monitored various Submission Processing site production reports, inventory reports,
          and return error inventories between January 26 and April 27, 2007, for key
          indicators of return processing and compared the statistics to those for the 2006 Filing
          Season.
       B. Monitored the IRS Program Completion Date reports from April 30 through
          May 10, 2007, to determine whether the Submission Processing sites processed all
          returns timely.
       C. Computer analyzed filing patterns to evaluate whether processing inventories were
          adversely affected by taxpayers filing returns at the wrong Submission Processing
          sites.
       D. Monitored weekly 2007 Filing Season Wage and Investment Division Production
          meetings between January 24 and May 31, 2007, and monitored the IRS Submission
          Processing office web site, the IRS web site (IRS.gov), and other applicable web sites
          from February 9 through May 7, 2007, to identify potentially significant issues.
III.   Determined whether the IRS had corrected problems identified in the 2006 Filing Season.
       From returns processed by the Submission Processing sites between January 1 and
       June 1, 2007, we electronically identified TY 2006 returns that met specific criteria.
       A. Identified 1,693 returns through June 1, 2007, on which taxpayers were over the age
          limits for receiving the IRA deduction.
       B. Identified 2.1 million returns processed through June 1, 2007, that did not claim the
          State sales tax deduction.



                                                                                          Page 20
           The 2007 Tax Filing Season Was Generally Successful, and
             Most Returns Were Timely and Accurately Processed



C. Identified 8,493 returns processed through June 1, 2007, filed by single taxpayers
   with no dependents who claimed both the Education Credit and the tuition and fees
   deduction.




                                                                                Page 21
                 The 2007 Tax Filing Season Was Generally Successful, and
                   Most Returns Were Timely and Accurately Processed



                                                                           Appendix II

                Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Scott A. Macfarlane, Director
Gary L. Young, Audit Manager
Tina M. Parmer, Lead Auditor
Mary L. Jankowski, Senior Auditor
Elizabeth A. Miller, Senior Auditor
Steven E. Vandigriff, Senior Auditor
Lawrence N. White, Senior Auditor
Bonnie G. Shanks, Auditor
Joseph C. Butler, Information Technology Specialist
Judith P. Harrald, Information Technology Specialist




                                                                                   Page 22
                  The 2007 Tax Filing Season Was Generally Successful, and
                    Most Returns Were Timely and Accurately Processed



                                                                             Appendix III

                          Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Acting Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Media and Publications, Wage and Investment Division SE:W:CAR:MP
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Director, Tax Forms and Publications, Wage and Investment Division SE:W:CAR:MP:T
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                     Page 23
                      The 2007 Tax Filing Season Was Generally Successful, and
                        Most Returns Were Timely and Accurately Processed



                                                                                                Appendix IV

                                     Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.
For all of the outcomes listed in this appendix, we conducted computer analyses of TY 2006
individual income tax returns.1 The returns were processed by the IRS Submission Processing
sites2 between January 1, 2007, and June 1, 2007, and were posted to the Individual Master File.3
We developed specific criteria to identify returns affected by the new tax law changes covered in
this review.4 We used further computer analysis and auditor evaluation of return data to
determine if the IRS accurately processed individual tax returns during the 2007 Filing Season.5

Type and Value of Outcome Measure:
•   Revenue Protection – Potential; $530,099 due to 1,693 taxpayers being improperly allowed
    the IRA deduction (see page 10).

Methodology Used to Measure the Reported Benefit:
We used computer analysis to identify 1,693 taxpayers over age 70½ that improperly claimed
more than $3.5 million in IRA deductions.6 Assuming all taxpayers received an improper tax
benefit from only the IRA deduction, the estimated loss is $530,099.7

Type and Value of Outcome Measure:
•   Taxpayer Rights and Entitlements – Potential; 4.6 million taxpayers, entitled to an estimated
    $1.66 billion in tax refunds, who missed the opportunity to claim the State sales tax
    deduction in TYs 2004 through 2006 (see page 11).


1
  Paper and electronic U.S. Individual Income Tax Returns (Form 1040 and Form 1040A) and Income Tax Returns
for Single and Joint Filers With No Dependents (Form 1040EZ).
2
  Submission Processing sites process paper and electronic submissions, correct errors, and forward data to the
Computing Centers for analysis and posting to taxpayer accounts.
3
  The IRS database that maintains transactions or records of individual tax accounts.
4
  See Appendix V.
5
  The period from January through mid-April when most individual income tax returns are filed.
6
  These exceptions did take into account the age of the spouse if the taxpayers filed as married filing jointly.
7
  We used the tax rate of 15 percent to compute the estimated tax benefit (i.e., 15 percent times $3,533,993 of IRA
deductions equals a tax benefit of $530,099).
                                                                                                           Page 24
                      The 2007 Tax Filing Season Was Generally Successful, and
                        Most Returns Were Timely and Accurately Processed



Methodology Used to Measure the Reported Benefit:
Our analysis over the past 3 filing seasons identified 4.6 million taxpayers who were eligible to
claim the State sales tax deduction. These taxpayers had itemized their deductions but had not
claimed the State income tax deduction. They are entitled to file amended returns and claim the
State sales tax deduction. If these taxpayers file amended tax returns, they may be entitled to as
much as $1.66 billion dollars in tax refunds.8
During our analysis of the 3 Tax Years, we found the average dollar amount of the State sales tax
deduction claimed dropped from $4,157 in TY 2004 to $2,134 in TY 2005 to $1,718 in TY 2006.
Using each Tax Year’s specific average resulted in $1.66 billion in tax refunds. See calculation
in Appendix VI.

Type and Value of Outcome Measure:
•   Revenue Protection – Potential; $2.97 million due to 8,493 single taxpayers with no
    dependents claiming more than $19.8 million in erroneous tuition and fees deductions (see
    page 15).

Methodology Used to Measure the Reported Benefit:
We focused on single taxpayers claiming no dependents because it is clear that both the tuition
and fees deduction and the Education Credit were claimed for the same individual. Our analysis
identified 8,493 single taxpayers with no dependents that claimed Education Credits of more
than $7 million and tuition and fees deductions of more than $19.8 million. Assuming all
8,493 taxpayers received an erroneous tax benefit from only the tuition and fees deduction, the
estimated loss of tax revenue is more than $2.97 million.9 Because the tax law prohibits
taxpayers from claiming both the tuition and fees deduction and the Education Credit for the
same individual in the same year, the tuition and fees deduction is not allowable.




8
  For States with a State income tax, we cannot positively differentiate between the State income tax deduction and
sales tax deduction in TY 2006. For consistency, the average for all 3 years was obtained using the results of sales
tax deduction claims made in the seven States that have no State income tax.
9
  We used the tax rate of 15 percent to compute the estimated revenue loss (i.e., 15 percent times $19,820,813 of
tuition and fees deductions equals $2,973,121).
                                                                                                            Page 25
                      The 2007 Tax Filing Season Was Generally Successful, and
                        Most Returns Were Timely and Accurately Processed



                                                                                                 Appendix V

    Overview of Tax Law Provisions and Administrative
          Changes Examined During the Review

The following information describes various tax law provisions and other changes that affected
TY 2006 individual income tax returns processed during the 2007 Filing Season.1 During our
review, we determined whether returns affected by the various provisions were accurately
processed, in accordance with the law.

Economic Growth and Tax Relief Reconciliation Act of 20012
This Act contained the following provision:
Section 601 – Modification of IRA Contribution Limits. Provides that, for TY 2006, the
maximum catchup contribution for individuals age 50 and over increased from $500 to $1,000.

Energy Policy Act of 20053
This Act contained the following provisions:
Section 1333 – Credit for Certain Non-Business Energy Property. Amends I.R.C. § 254 to
provide an individual a personal credit equal to the sum of:
      a. Ten percent of the cost of his or her qualified energy efficiency improvements (such as
         insulation, doors, windows, and certain metal roofs) installed during the taxable year in a
         United States dwelling used by the taxpayer as his or her principal residence.
      b. The amount of his or her residential energy property expenditures for the taxable year.
         These expenditures are for “qualified energy property” (such as heat pumps, air
         conditioners, qualified natural gas, propane or oil furnaces or hot water boilers, or an
         advanced main circulating fan) that is installed in a United States dwelling unit used by
         the taxpayer as his or her principal residence. The total credit is limited to $500 for the
         taxpayer’s lifetime.
Section 1335 – Credit for Residential Energy Efficient Property. Provides a personal tax credit
for the purchase of qualified photovoltaic property and qualified solar water heating property for


1
  The period from January through mid-April when most individual income tax returns are filed.
2
  Pub. L. No. 107-16, 115 Stat. 38 (2001).
3
  Pub. L. No. 109-58, 119 Stat. 594 (2005).
4
  26 U.S.C. § 25B (2005).
                                                                                                      Page 26
                         The 2007 Tax Filing Season Was Generally Successful, and
                           Most Returns Were Timely and Accurately Processed



use (other than for heating swimming pools and hot tubs) in a United States dwelling used by the
taxpayer as a residence. The credit is equal to 30 percent of qualifying expenditures, limited to a
$2,000 maximum credit for each of these systems. Qualified photovoltaic property uses solar
energy to generate electricity for use in a dwelling unit. Qualifying solar water heating property
heats water where at least one-half of the energy used by the dwelling unit for such purpose is
derived from the sun. The credits are nonrefundable and reduce the taxpayer’s basis in the
property to which they relate.

Katrina Emergency Tax Relief Act of 20055
This Act contained the following provision:
Section 302 – Additional Exemption for Housing Hurricane Katrina Displaced Individuals.
Provides an additional exemption of $500 for each Hurricane Katrina displaced individual. The
maximum additional exemption amount is $2,000 for married taxpayers filing jointly, $1,000 for
married taxpayers filing separately, and $2,000 for all other taxpayers. The taxpayer may claim
the exemption only one time for each displaced individual for all taxable years. A Hurricane
Katrina displaced individual is a person (1) whose principal place of abode on August 28, 2005,
was in the Hurricane Katrina disaster area; (2) who is displaced from such abode; (3) whose
abode, if located within the disaster area but outside the core disaster area, must be damaged by
Hurricane Katrina, or who was evacuated from the abode because of Hurricane Katrina; and
(4) who is provided housing free of charge in the taxpayer’s principal residence for a period of
60 consecutive days that ends in the taxable year in which the exemption is claimed. The
displaced individual cannot be the taxpayer’s spouse or dependent. The taxpayer cannot receive
any compensation from any source for providing housing to the displaced individual. The
taxpayer must provide the Taxpayer Identification Number of the displaced individual.

Tax Increase Prevention and Reconciliation Act of 20056
This Act contained the following provision:
Section 515 – Modification of Exclusion for Citizen Living Abroad. Provides the following
changes to the exclusions for foreign earned income and foreign housing costs beginning in
TY 2006:
         a. Indexing of the $80,000 cap on excludable foreign earned income is accelerated 2 years
            (from 2008 to 2006).
         b. The base housing amount used in calculating the housing cost exclusion is changed to
            16 percent of the cap on excludable foreign earned income. Except as otherwise


5
    Pub. L. No. 109-73, 119 Stat. 2016 (to be codified in scattered sections of 26 U.S.C.).
6
    Pub. L. No. 109-222, 120 Stat. 345 (2006).
                                                                                              Page 27
                      The 2007 Tax Filing Season Was Generally Successful, and
                        Most Returns Were Timely and Accurately Processed



          provided by the Secretary in regulations, the base housing amount is limited to
          30 percent of the taxpayer’s foreign earned income exclusion.
      c. The taxpayer’s income in excess of the combined exclusions is taxed (for both the
         regular tax and the Alternative Minimum Tax) at the tax rates that would have applied
         to that income if the taxpayer had not elected to take the exclusions.

Tax Relief and Health Care Act of 20067
This Act contained the following provisions:
Section 101 – Deduction for Qualified Tuition and Related Expenses. Extends the tuition and
fees deduction that expired on December 31, 2005, for 2 years to TYs 2006 and 2007.
Section 103 – Deduction for State and Local General Sales Taxes. Extends the State and local
sales tax deduction that expired on December 31, 2005, for 2 years to TYs 2006 and 2007.
Section 108 – Educator Expenses. Extends the deduction for certain expenses for elementary
and secondary school teachers that expired on December 31, 2005, for 2 years to TYs 2006 and
2007.

IRS Administrative Changes
Expanded Options for Direct Deposit of Refund8
In an effort to encourage higher savings and more banking, the IRS created a new program for
individual filers who use direct deposit. Beginning in TY 2006, individual taxpayers could elect
to have their Federal income tax refunds split and electronically deposited into up to three
accounts, such as checking, savings, or IRA. In addition, the accounts can be with up to three
different United States financial institutions, including banks, brokerage firms, or credit unions.
Taxpayers must complete Direct Deposit of Refund to More Than One Account (Form 8888).
Communications Excise Tax; Toll Telephone Service9
The TETR is a one-time refund designed to refund previously collected long-distance Federal
excise taxes. It is available to anyone who paid long-distance taxes on landline, cell phone, or
Voice over Internet Protocol service billed after February 28, 2003, and before August 1, 2006.
Taxpayers can request this refund by completing Credit for Federal Telephone Excise Tax Paid
(Form 8913) and attaching it to their TY 2006 income tax returns. Individual taxpayers can take
a standard amount ranging from $30 to $60 based on the number of exemptions claimed on their
tax returns, or they may compute their refunds using actual receipts. To allow everyone entitled


7
  Pub. L. No. 109-432, 120 Stat. 2922 (2006).
8
  IRS News Release -IR-2006-85 (5/31/2006).
9
  Internal Revenue Bulletin 2006-25, p.1141 (2006).
                                                                                            Page 28
                     The 2007 Tax Filing Season Was Generally Successful, and
                       Most Returns Were Timely and Accurately Processed



to the credit to take it, the IRS designed Request for Refund of Federal Telephone Excise Tax
(Form 1040EZ-T) for those not required to file income tax returns.

Cost-of-Living (Inflation) Adjustments for TY 2006
Revenue Procedure 2005-7010 contained the following inflation-adjusted items:
Earned Income Tax Credit. For TY 2006, the earned income amounts,11 maximum amounts
of Earned Income Tax Credit, and threshold amounts for phaseout of the credit under
I.R.C. § 32(b) were increased. For example, taxpayers filing as Single, Surviving Spouse, or
Head of Household with earned income of less than $36,348 ($38,348 for joint returns) and 2 or
more qualifying children can claim up to a maximum credit of $4,536. However, the amount of
credit that can be claimed begins to phase out when the taxpayer’s adjusted gross income (or
earned income, if greater) reaches $14,810 ($16,810 for joint returns) and is completely phased
out when the taxpayer’s adjusted gross income (or earned income, if greater) reaches $36,348
($38,348 for joint returns). Also, the investment income amount under I.R.C. § 32(i)(1) was
increased to $2,800.
Standard Deduction. For TY 2006, the standard deduction amounts under I.R.C. § 63(c)(2)12
were increased to $5,150 for Single or Married Filing Separately filing statuses, $7,550 for Head
of Household filing status, and $10,300 for Married Filing Jointly or Surviving Spouse filing
statuses. The standard deduction amount under I.R.C. § 63(c)(5) for an individual who may be
claimed as a dependent by another taxpayer may not exceed the greater of $850 or the sum of
$300 and the individual’s earned income. The additional standard deduction amounts under
I.R.C. § 63(f) for the aged and for the blind are $1,000 each or $1,250 each if the individual is
also unmarried and not a surviving spouse.
Personal Exemption. For TY 2006, the personal exemption under I.R.C. § 151(d)13 is $3,300.




10
   Rev. Proc. 2005-70, 2005-47 I.R.B. 979 (11-21-2005).
11
   The earned income amount is the amount of earned income at or above which the maximum amount of the Earned
Income Tax Credit is allowed. Earned income generally includes wages, salaries, tips, and other employee
compensation, plus net earnings from self-employment.
12
   26 U.S.C. § 63 (2004).
13
   26 U.S.C. § 151 (2004).
                                                                                                    Page 29
                       The 2007 Tax Filing Season Was Generally Successful, and
                         Most Returns Were Timely and Accurately Processed



                                                                                                  Appendix VI

       Detailed Analysis of the Missed State Sales Tax
                         Deductions

Taxpayers Who Missed the Opportunity to Claim the State Sales Tax Deduction


                                                          TY 2004 Missed Opportunities                   1,085,228
                                                          TY 2005 Missed Opportunities                   1,404,996
                                                          TY 2006 Missed Opportunities                   2,071,952
    Total Taxpayers Who Are Eligible for the State Sales Tax Deduction but Did Not
                   Claim It (Itemized but Claimed No State Income Tax Deduction)                         4,562,176


              Calculation of Average State Sales Tax Deductions Claimed1

                                      Taxpayers Claiming State Sales Tax in TY 2004                      4,607,561
                                    Total State Sales Tax Dollars Claimed in TY 2004             $ 19,152,071,436
                      Average State Sales Tax Dollars Claimed per Return, TY 2004                       $ 4,156.66


                                      Taxpayers Claiming State Sales Tax in TY 2005                      4,575,443
                                    Total State Sales Tax Dollars Claimed in TY 2005              $ 9,763,462,020
                      Average State Sales Tax Dollars Claimed per Return, TY 2005                       $ 2,133.88


                                      Taxpayers Claiming State Sales Tax in TY 2006                      4,183,751
                                    Total State Sales Tax Dollars Claimed in TY 2006              $ 7,186,502,730
                      Average State Sales Tax Dollars Claimed per Return, TY 2006                       $ 1,717.72




1
  For States with a State income tax, we cannot positively differentiate between the State sales tax deduction and the
State income tax deduction in TY 2006. Therefore, for consistency, the averages for each year were obtained using
the results of the State sales tax claims made in the seven States that have no State income tax. Using this method
also avoids any issues where the identification of sales tax versus income tax was in error.
                                                                                                             Page 30
                      The 2007 Tax Filing Season Was Generally Successful, and
                        Most Returns Were Timely and Accurately Processed




Total Tax Refund Dollars Missed by Not Claiming the State Sales Tax Deduction
           (calculations based on each year’s specific average as previously calculated)2


                                TY 2004 Missed Opportunities                   1,085,228
    Average Sales Tax Dollars Claimed per Return, TY 2004                     $ 4,156.66
                   Total Sales Tax Deduction Dollars Missed          $ 4,510,925,450.66
                 Times 15% Tax Rate Equals Tax Refund Dollars Missed, TY 2004                     $ 676,638,818


                                TY 2005 Missed Opportunities                   1,404,996
    Average Sales Tax Dollars Claimed per Return, TY 2005                     $ 2,133.88
                   Total Sales Tax Deduction Dollars Missed          $ 2,998,097,688.96
                 Times 15% Tax Rate Equals Tax Refund Dollars Missed, TY 2005                     $ 449,714,653


                                TY 2006 Missed Opportunities                   2,071,952
    Average Sales Tax Dollars Claimed per Return, TY 2006                     $ 1,717.72
                   Total Sales Tax Deduction Dollars Missed          $ 3,559,028,418.38
                 Times 15% Tax Rate Equals Tax Refund Dollars Missed, TY 2006                     $ 533,854,263


         Total Tax Refund Dollars Missed by Not Taking the Sales Tax Deduction,
                                                                 TYs 2004-2006                  $ 1,660,207,734




2
  Calculations in this table were made using the actual unrounded figures for each step. Therefore, the specific
individual calculations may differ from amounts calculated using the rounded figures presented (for example, total
sales tax deduction dollars missed).
                                                                                                          Page 31
     The 2007 Tax Filing Season Was Generally Successful, and
       Most Returns Were Timely and Accurately Processed



                                                   Appendix VII

Management’s Response to the Draft Report




                                                          Page 32
The 2007 Tax Filing Season Was Generally Successful, and
  Most Returns Were Timely and Accurately Processed




                                                     Page 33
The 2007 Tax Filing Season Was Generally Successful, and
  Most Returns Were Timely and Accurately Processed




                                                     Page 34
The 2007 Tax Filing Season Was Generally Successful, and
  Most Returns Were Timely and Accurately Processed




                                                     Page 35
